1

#19-5616

m THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner,
vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
Proof of Service
On Petition for Extraordinary Writ
Specifically for Writs of both Mandamus & Prohibition
The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921
PROOF OF SERVICE OF [EMERGENCY] PETITION FOR EXTRAORDINARY WRIT

I, Russell Rope, declare that on the date of June 10, 2020, as normally required by
Supreme Court, that I have served the enclosed EMERGENCY: MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, PETITION FOR EXTRAORDINARY WRIT(S), and
AFFIDAVIT & CERTIFICATION OF A PARTY UNREPRESENTED BY COUNSEL on each
party to the above proceeding (including judges), specifically on their counsel by both
electronically filing said documents in the Ninth Circuit and emailing where they have
previously agreed to electronic service. Furthermore, Petitioner is exempt from
traditional methods of serving Respondents for the following reason:
SCOTUS Rule 29.3:
“.. .unless the party filing the document is proceeding pro se and in forma pauperis...”

Proof ofService of [Emergency] Petition for Extraordinary> Writ @ SCOTUS; Case # 19-5616; Page # 1 of 2

Plaintiff is both pro se and in forma pauperis. The rule is not clear as what exactly to do
in this extraordinary situation, but other SCOTUS instructions and rules give reason for
Petitioner to believe The Court can and will provide service if unbelievably necessary.

Names & Addresses of Served Attorneys & Judges as Follows:
• Alphabet Inc. & Twitter, Inc. Attorneys:
o Bali, Sunita @ sbali@perkinscoie. com
o Snell, James G. @ isnell@perkinscoie.com
• Apple, Inc. Attorneys:
o Erickson, Ryan Bodine @ rerickson@lewisllewellvn.com
o Furman, Rebecca @ bfurman@lewisllewellvn. com
• Facebook, Inc. Attorneys:
o Malhotra, Paven @ pmalhotra@keker. com
o Mehta, Neha @ vmehta@lewisllewellvn. com
• JPMorgan Chase & Co. Attorneys:
o Watson, Brett D. @ bwatson@ldattomevs.com & bwatson@cozen. com
• Trial-Court Judge(s):
o Michael W. Fitzgerald @ MWF Chambers@cacd.uscourts.gov
o Paul. L. Abrams @ pla chambers@cacd.uscourts.gov
o Circuit Court Judges Via CM/ECF @ ca9.uscourts.gov/cmecf

I declare under penalty of perjury, that to the best of my knowledge, all of the
aforementioned is true and correct.

Si
*E 6/10/2020
/
Petitioner & Plaintiff In Pro Per
(310) 663-7655

Proof ofService of[Emergency] Petition for Extraordinary> Writ @ SCOTUS; Case # 19-5616; Page # 2 of 2

